Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       FDA’s Review Process
     for New Drug Applications

         A Management Review




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                       MARCH 2003
                       OEI-01-01-00590
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE                       SUMMARY

PURPOSE

          To assess how well the Food and Drug Administration manages its new drug application review
          process.


BACKGROUND

          The Food and Drug Administration (FDA) receives new drug applications (NDAs) from
          sponsors, typically pharmaceutical companies, and reviews these applications for scientific
          evidence pertaining to the safety and efficacy of drugs. Based on its assessments, the FDA
          determines whether drugs can be marketed in the United States.

          The Prescription Drug User Fee Act (PDUFA), enacted in 1992, authorized FDA to collect
          user fees from sponsors to help speed up the review of NDAs. It also established time goals
          for FDA’s reviews. In 1997, the FDA Modernization Act reauthorized user fees for another 5
          years. It shortened the time goals and called for FDA to work more collaboratively with
          sponsors. In June 2002, the Public Health Security and Bioterrorism Preparedness Act of
          2002 once again reauthorized user fees. The part of this Act addressing user fees is referred to
          as PDUFA III.

          This inquiry focuses on FDA’s Center for Drug Evaluation and Research (CDER), which
          reviews NDAs. This inquiry does not assess the scientific merit of the decisions that FDA has
          made. Instead, it examines how well FDA carries out its NDA review process. This report
          draws heavily on the opinions of CDER officials. We surveyed CDER reviewers, receiving an
          estimated 47 percent response rate (N=401) and interviewed about 80 CDER officials,
          including managers. In addition, we surveyed sponsors, receiving a 60 percent response rate
          (N=72), reviewed files for all 15 new molecular entities approved by CDER in fiscal year (FY)
          2001, analyzed CDER data regarding the number of advisory committees, observed 17 CDER
          meetings, interviewed 20 stakeholders, and reviewed relevant FDA policies and procedures.
          We also drew on data from an internal survey conducted by CDER of a random sample of 188
          reviewers that had a 72 percent response rate.

          We conducted this inquiry prior to the implementation of PDUFA III. Where appropriate, we
          indicate the potential impact of PDUFA III on our findings.



FDA’s Review Process for New Drug Applications        i                                  OEI-01-01-00590
FINDINGS

FDA’s new drug application review process has several strengths that contribute
significantly to its effectiveness.

          Both FDA reviewers and sponsors have confidence in the decisions FDA makes. Our
          review underscored that FDA’s NDA review process is science-based and comprehensive.
          This is supported by the comments of both FDA reviewers and sponsors. Seventy-eight
          percent of FDA respondents and 86 percent of sponsors indicated in our surveys that they
          were confident in the decisions FDA makes with regard to a drug’s efficacy.

          FDA is highly responsive to the time goals required under the Prescription Drug User
          Fee Act and the FDA Modernization Act. In 1993, median total approval time for CDER
          was 27 months for standard NDAs classified as new molecular entities; in 2001, it was 19
          months. The reduction in approval times helps to ensure timely access to new medications that
          can benefit the public health.

          FDA works collaboratively with sponsors. In FY 2001, CDER conducted 1,021 formal
          meetings with sponsors. In these meetings, FDA provides valuable advice to sponsors that can
          help speed up the drug development process.

          FDA has taken numerous steps to improve efficiency and consistency. In 2000, CDER
          issued about 40 guidance documents, most of which it directed to sponsors. Between 1996
          and 2001, CDER issued about 140 policies to help guide reviewers. It also now accepts
          applications electronically.

          FDA relies on expert scientific reviewers. Both sponsors and reviewers agreed that
          FDA’s in-house expertise is a key asset of the review process. Funds from user fees have
          allowed FDA to increase the number of employees for drug reviews by about 700 employees
          over the past 10 years.

But workload pressures increasingly challenge the effectiveness of the review
process.

          Reviewers are under constant pressure to meet time goals. They not only review NDAs, but
          also other key documents submitted by sponsors, some of which also have time goals attached.
          At the same time, reviewers must provide advice to sponsors and stay abreast of the latest
          scientific advances in their fields. Below, we present the consequences of these workload
          pressures.


FDA’s Review Process for New Drug Applications      ii                                 OEI-01-01-00590
          Reviewer concerns about time pressures. Forty percent of FDA survey respondents who
          had been at FDA at least 5 years indicated that the review process had worsened during their
          tenure in terms of allowing for in-depth, science-based reviews. Respondents cited lack of time
          as the main reason. According to 58 percent of FDA respondents, the allotted 6 months for a
          priority review is inadequate. This is considerably higher than the 25 percent of respondents
          who indicated that the allotted 10 months for a standard review is inadequate.

          Reviewer concerns about time constraints do not necessarily mean that there is a threat to
          public health. We have no evidence of a public health concern nor did we seek to obtain such
          evidence. Reviewers commented in interviews that they did not believe that they were ignoring
          key information or data contained in the applications in order to meet time goals. The FDA has
          also received the 4th highest composite score out of the 13 operating divisions within the
          Department of Health and Human Services on the 2002 Secretary’s Quality of Work Life
          Survey on Organizational Climate, which indicates a positive work environment. However, our
          survey data do indicate a significant management issue warranting attention.

          The PDUFA III should help to address reviewers’ concerns about time pressures, as CDER
          estimates hiring close to 300 additional employees over the next 5 years with funds from user
          fees.

          Less use of advisory committees. Advisory committees are comprised of independent
          scientific experts who provide advice to FDA during the review process. The number of
          advisory committee meetings CDER held for NDAs decreased from 40 in 1998 to 23 in 2001.
          Although the declining number of NDAs submitted by sponsors has contributed in part to this
          decline, FDA managers also pointed out that they have little time to hold these meetings.

          Insufficient time for raising scientific disputes. Pressure to meet time goals may inhibit the
          raising of disputes. Reviewers may be reluctant to raise disputes due to concerns about slowing
          down the process. Twenty-one percent of FDA respondents indicated that the work
          environment allowed for the expression of differing scientific opinions to a small or no extent.

          Contributing to staff turnover. The FDA data show that medical officers and
          pharmacologists had the highest attrition rates within CDER for FY 2001, 8.4 percent and 6.9
          percent respectively, compared to the overall rate of 5.5 percent. On an internal CDER
          survey, 50 percent of reviewers who responded indicated that their workloads are influential
          reasons to consider leaving FDA.




FDA’s Review Process for New Drug Applications       iii                                 OEI-01-01-00590
          Less time for reviewers to participate in professional development and to conduct
          research to improve drug development. The FDA has policies and programs in place to
          encourage professional development, yet 59 percent of FDA respondents indicated that they
          have little time to participate in professional development activities. Similarly, reviewers have
          little time to conduct research on drug development using the clinical trial databases FDA has
          obtained from sponsors.

Several factors have contributed to the workload pressures.

          Time goals have been beneficial, but at the same time they have created pressure on reviewers
          to work quickly. The FDA has little flexibility in reassigning staff to handle increased
          workloads. The FDA’s dual roles as advisor and reviewer demand substantial time and
          resources; the CDER held over 1,000 meetings with sponsors in FY 2001. Incomplete and
          disorganized applications can cause delays. The 15 new molecular entities we reviewed
          contained, on average, 38 amendments to the original application. Inefficiencies in the process
          also contribute to workload pressures.

          As we have already indicated, PDUFA III will provide FDA additional resources to hire more
          staff that should help address these workload pressures. It also calls for FDA to conduct
          several studies aimed at improving the efficiency of the process.

Other factors also challenge the effectiveness of the review process.

          Rush to finalize drug labels at the end of the process. Although labeling negotiations must
          occur toward the end of the process, we found that negotiations were considerably
          compressed. Eighty-two percent of FDA respondents indicated that labeling negotiations
          contribute to delays. Twenty-seven percent of labeling amendments for the 15 new molecular
          entities we reviewed were submitted in the last 14 days of the review process. The rush to
          finalize labels at the end of the review process can be caused by the lengthy discussions that
          often occur between FDA and the sponsor regarding the information to include on the label.
          The FDA has numerous activities underway to help address this issue.

          Reviewers’ uncertainty about postmarketing commitments. Postmarketing commitments
          are made by the sponsor at the time of approval and can include additional studies to further
          define the safety and effectiveness of the drug. Reviewers indicated that they were often
          uncertain about what types of postmarketing commitments to request of sponsors. The
          PDUFA III calls for FDA to issue several guidance documents regarding risk management after
          the drug is approved. These documents should help to clarify the use of postmarketing
          commitments.



FDA’s Review Process for New Drug Applications        iv                                    OEI-01-01-00590
          Limited public disclosure of FDA’s rationale for decisions. We reviewed the information
          on CDER’s website for 15 new molecular entities, and in no case did FDA provide a summary
          document that explained the overall basis for approval. The FDA does not routinely provide
          summary information for approved drugs, nor is it required to do so. We found it took 7.6
          months, on average, for FDA to post the technical information it does disclose on its website
          after a drug is approved. For drugs that FDA reviewed but did not approve, FDA disclosed
          almost no information regarding the basis for its decisions. The FDA’s regulations limit such
          disclosure.


CONCLUSION

FDA’s NDA review process has several strengths. However, reviewers face
workload pressures that increasingly challenge the effectiveness of the process.

          Beyond these pressures, three other factors threaten the effectiveness of the process: the rushed
          review of drug labels that takes place toward the end of the review process, the limited
          guidance available to reviewers in determining the extent and type of postmarketing
          commitments to request of sponsors, and the limited information that FDA makes available to
          the public on the basis for its decisions concerning NDAs. Overall, these findings present a
          significant warning signal, one, that if not fully addressed, could jeopardize the gains that FDA
          has made in recent years.

The enactment of PDUFA III presents significant opportunities to address many of
the findings in this report.

          We recognize that FDA has already identified many of the concerns presented in this report
          and has numerous efforts underway to address them. In particular, the enactment of PDUFA
          III, which FDA played a critical role in developing with sponsors, presents significant
          opportunities to address many of our findings. It calls for an increase in user fees that CDER
          estimates will allow it to hire close to 300 additional employees over the next 5 years. Over
          time, this could help considerably in relieving the workload pressures that we have emphasized.
          In addition to resources, PDUFA III calls for FDA to conduct several activities aimed at
          improving the process. These activities will help to address many of the findings in this report,
          including efficiency, labeling negotiations, and the use of advisory committees. In addition,
          PDUFA III calls for significant attention to be placed on postmarketing commitments. For the
          first time, funds from user fees can be used to monitor drugs after they are on the market. It
          also calls for FDA to develop several guidance documents on risk management.

          Our first recommendation offers additional steps that FDA can take as it implements PDUFA
          III to ensure that it takes full advantage of these opportunities to address our


FDA’s Review Process for New Drug Applications        v                                   OEI-01-01-00590
          findings. We also make four other recommendations to FDA to improve the NDA review
          process that are not addressed in PDUFA III. We direct all our recommendations to CDER.


RECOMMENDATIONS

1. Take full advantage of the opportunities in PDUFA III.

          <	 Conduct a retrospective examination of recent NDA reviews to determine the capacity of
             reviewers to conduct in-depth, science-based reviews.
          <	 Evaluate the adequacy of current staffing levels and the workload distribution among the 15
             review divisions within CDER, and implement a system that in real time would indicate the
             status of an NDA and the time spent in reviewing its specific parts.
          <	 Assess how amendments to the original application, internal processing delays, and labeling
             negotiations affect FDA’s capacity to make timely, first-cycle review decisions.
          <	 Offer further guidance on the best way to handle scientific disputes that occur among
             reviewers, and how to balance the role of reviewing NDAs and the role of advising
             sponsors throughout the drug development process.
          < Include case studies of past reviews as part of training programs for reviewers to illustrate
             good review principles and foster consistency among divisions.
          < Provide a list of the various postmarketing commitments that FDA reviewers can request of
             sponsors and suggestions for when each could be considered.

2. Determine whether the significant workload pressures discussed in this report
justify any exceptions to the current time goals regarding new drug applications
to allow for more in-depth reviews.

          As we have indicated, the Prescription Drug User Fee Act and the FDA Modernization Act
          have been positive forces for the review process. However, it is important that an appropriate
          balance exists between timeliness and the ability to conduct a comprehensive review. Our data
          show that reviewers face significant workload pressures. Therefore, FDA could examine if it
          would be beneficial to extend the review clock by 1 or 2 months when it chooses to use an
          advisory committee and to consider modifying the current 10-month time goal for standard
          NDAs by 1 or 2 months.

3. Reject applications that are incomplete and of poor quality that can create
delays in the new drug application review process.




FDA’s Review Process for New Drug Applications      vi                                  OEI-01-01-00590
          A timely review process depends not only on FDA, but also on sponsors submitting complete
          and well organized NDAs. Toward that end, FDA could reexamine its policies for refusal-to-
          file and its guidance to sponsors on the content and format of applications to ensure that they
          make explicit FDA’s requirements.

4. Provide the public with a clear and timely explanation of decisions on new drug
applications.

          The FDA could provide on its website a succinct explanation of its rationale for approving an
          NDA. It could also provide the same explanation when it decides not to approve an NDA.
          Disclosing such information could help convey to the public the independent role that FDA
          plays in the review process and that FDA does not approve all drugs. Further, this could help
          sponsors gain a better understanding of the criteria FDA uses in its review process and could
          lead to improved NDAs in the future.

5. Conduct or support research that takes greater advantage of its vast clinical
trial databases to identify ways to improve drug development.

          The results of this research, over time, could be highly cost-effective, contributing to better
          clinical trial designs and more efficient drug development.



AGENCY COMMENTS

          The FDA reviewed a draft of this report, and overall, it concurred with our conclusions and
          recommendations. In its comments, FDA outlined numerous activities it has underway or
          planned to address our recommendations. Specifically, FDA indicated that it is reviewing its
          workload distribution and has studies underway to examine delays in the review process. The
          full text of FDA’s comments can be found in Appendix A.




FDA’s Review Process for New Drug Applications         vii                                   OEI-01-01-00590
                             TABLE                        OF               CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


PRIMER ON FDA’S NDA REVIEW PROCESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Strengths of the Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Workload Pressures Challenge the Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Several Factors Have Contributed to the Workload Pressures . . . . . . . . . . . . . . . . . . . . . . 14

          Other Factors Challenge the Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


          Appendix A:           FDA’s Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

          Appendix B:           Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

          Appendix C:           Time Goals For CDER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

          Appendix D:           Highlights of PDUFA III . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

          Appendix E:           Rate of Withdrawn Drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

          Appendix F:           Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

          Appendix G:           Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47





FDA’s Review Process for New Drug Applications                      viii                                                      OEI-01-01-00590
                                       INTRODUCTION

PURPOSE

          To assess how well the Food and Drug Administration manages its new drug application review
          process.


BACKGROUND

          The Food, Drug, and Cosmetic Act requires the Food and Drug Administration (FDA) to
          review and approve all new drugs before they can be marketed in the United States. The FDA
          evaluates new drugs based upon the scientific evidence obtained from clinical studies and other
          research conducted by a drug’s sponsor, typically a pharmaceutical company. Sponsors
          submit this information to FDA in a new drug application (NDA). Based on its review of the
          application, FDA assesses the safety and efficacy of the drug and determines whether it can be
          marketed in the United States. (We provide a primer that gives an overview of the review
          process on page 5. Appendix B contains a glossary of key terms.)

The Prescription Drug User Fee Act and the Food and Drug Administration
Modernization Act

          In response to the public’s demand for greater access to new drugs to treat life-threatening
          illnesses, the 1992 Prescription Drug User Fee Act, referred to as PDUFA I, was enacted. The
          main purpose of PDUFA I was to reduce the time it takes FDA to review new drugs for
          market approval. It authorized FDA to collect user fees from sponsors to be used towards
          speeding up the NDA review process. It also established time goals for FDA’s review of
          NDAs. The FDA reports annually to Congress on how well it has met these time goals (see
          Appendix C for a list of the goals).

          In 1997, user fees were reauthorized as part of the Food and Drug Administration
          Modernization Act. The section of the Act that addresses user fees, referred to as PDUFA II,
          tightened the deadlines in the goals. It also added new provisions to help speed up the entire
          drug development process. Most notably, it required FDA to meet with sponsors upon request
          and codified many existing FDA policies intended to bring life-saving treatments to market
          faster.




FDA’s Review Process for New Drug Applications       1                                       OEI-01-01-00590
          User fees have provided additional resources for FDA. The FDA’s Center for Drug
          Evaluation and Research (CDER) total costs in fiscal year (FY) 2000 for reviewing NDAs was
          $187 million, of which $86 million was paid for by user fees. The FDA primarily used the funds
          from user fees to hire more staff and to implement computer systems to speed up its review of
          NDAs.

Prescription Drug User Fee Act III

          The PDUFA II expired on September 30, 2002. In June 2002, user fees were once again
          reauthorized, referred to as PDUFA III, as part of the Public Health Security and Bioterrorism
          Preparedness Act of 2002. The PDUFA III establishes time goals and outlines activities FDA
          will conduct over the next 5 years using the funds from user fees (see Appendix D).1 The
          PDUFA III went into effect on October 1, 2002.

          Most notably, PDUFA III increases user fees to help provide FDA with additional resources.
          According to a press release from the U.S. Department of Health and Human Services, “the
          law puts PDUFA III on sound financial basis.”2 In FY 2002, FDA, including both the Center
          for Biologics Evaluation and Research and CDER, estimates it collected about $160 million
          from user fees. Under PDUFA III, total funds from user fees should reach $223 million in FY
          2003, and gradually increase over the next 5 years to reach $260 million in FY 2007. With
          increased resources, CDER estimates it will hire close to 300 additional employees over the
          next 5 years.

Concerns about the adequacy of FDA’s review process

          Critics allege that, in the rush to meet its time goals, FDA fails to identify key risks associated
          with drugs. Critics also raise concerns that FDA works too closely with pharmaceutical
          companies, lacks independence, has lowered its review standards, and conducts inadequate
          monitoring of drugs already on the market. Critics point to the recent drug withdrawals as
          evidence of their concerns. Between 1997 and 2001, sponsors voluntarily withdrew 13 drugs
          due to safety concerns. Five of them were approved prior to PDUFA, and one has since
          returned to the market. New molecular entities (NMEs) are drugs containing an active
          ingredient that has never been approved for marketing in the United States. According to
          CDER’s analysis, the rate of safety-based withdrawals for NMEs has remained relatively
          constant for periods prior to and after the enactment of the Prescription Drug User Fee Act in
          1992. According to CDER’s analysis, between FY 1983 and FY 1992, the rate of safety-
          based withdrawals for NMEs, based on the year of receipt, was 2.5 percent, and between FY
          1993 and FY 2002, it was 2.8 percent (see Appendix E for additional analysis). The FDA’s
          own review of many of these withdrawals concluded that they were not attributable to faster
          review times.3



FDA’s Review Process for New Drug Applications         2                                         OEI-01-01-00590
Our Inquiry

          Our inquiry focuses on CDER, one of two Centers within FDA that reviews NDAs. We did
          not evaluate the Center for Biologics Evaluation and Research’s process for reviewing NDAs.
          Our inquiry focuses on how well CDER carries out its NDA review process. We did not
          examine the scientific merit of FDA’s decisions. We conducted this inquiry at the request of the
          director of CDER and prior to the implementation of PDUFA III. Where appropriate, we
          indicate the potential impact of PDUFA III on our findings. We also highlight activities FDA
          has underway to address our findings.

          We use the term “FDA reviewers,” broadly, unless otherwise specified, to refer to CDER
          officials involved in the NDA review process. This includes office directors, division directors,
          primary reviewers, secondary reviewers, and project managers within the Office of New
          Drugs, the Office of Pharmacoepidemiology and Statistical Science, the Office of
          Pharmaceutical Science, and the Office of Medical Policy.

Methodology

          This inquiry is based on multiple data sources (see Appendix F). This inquiry draws heavily on
          a web-based survey of all CDER primary reviewers, secondary reviewers, and division
          directors. We received 401 responses for an estimated response rate of 47 percent. We
          conducted a mail survey of all 119 sponsors, excluding one federal agency, that had at least one
          NDA approved by CDER in the years 1999, 2000, or 2001. We received 72 responses from
          sponsors, resulting in a 60 percent response rate. We also drew on data from an internal
          survey conducted by CDER of a random sample of 188 reviewers that had a 72 percent
          response rate.

          We conducted a file review of all new molecular entities that CDER approved in FY 2001
          (N=15). For these 15 drugs, we analyzed CDER’s receipt dates for all amendments submitted
          to the application. We analyzed CDER’s data on advisory committees. We observed 17
          CDER meetings that occurred throughout the drug development process, including internal
          meetings and meetings between CDER officials and sponsors. We also reviewed relevant
          FDA laws, regulations, policies, and procedures.

          To enhance our understanding, we conducted numerous interviews. We interviewed CDER
          officials, including 17 office directors, 27 division directors, and 18 primary and secondary
          reviewers of NDAs, including project managers. We conducted 9 interviews with
          representatives from pharmaceutical companies and 15 interviews with other stakeholders, such
          as consumer advocates, patient advocates, and scientific experts.




FDA’s Review Process for New Drug Applications        3                                         OEI-01-01-00590
          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




FDA’s Review Process for New Drug Applications     4                                      OEI-01-01-00590
           PRIMER ON FDA’S NDA REVIEW PROCESS

This primer refers to the review of NDAs conducted by CDER.

Review Clock. The review clock is the time between FDA’s receipt of the application and FDA’s decision. The PDUFA II calls
for FDA in FY 2002 to review and act upon 90 percent of standard NDAs within 10 months and 90 percent of priority applications
within 6 months. Priority applications are for drugs that are a significant improvement over drugs already on the market to treat the
same condition. Standard applications are applications not classified as priority.

Contents of a New Drug Application. A sponsor, typically a pharmaceutical company, submits the NDA to FDA to obtain
marketing approval for a drug within the U.S. The application contains data regarding the safety and efficacy of the drug that the
sponsor obtained during its research and development. Thesedata include the results of clinical trials, pharmacology and toxicology
data, chemistry and manufacturing data, and proposed packaging and labeling information.

Filing Review. When FDA receives an application, the review clock begins. The FDA assigns the application to the appropriate
therapeutic review division, of which there are 15. The FDA has 60 days, from the receipt of the application, to determine whether
it is adequate for review. If the application is deemed inadequate or incomplete, FDA can refuse to file it and the sponsor can
resubmit it later. If the application is complete, FDA notifies the sponsor that the application has been filed.

Reviews within Individual Disciplines. After the application is filed, FDA assigns the application to a team of multi-disciplinary
reviewers. These reviewers are referred to as primary reviewers. They represent a variety of scientific disciplines, including
medicine, pharmacology,statistics, and chemistry. The FDA also assigns a project manager that facilitates the review process and
serves as a liaison between FDA and the sponsor. The reviewers, except for the project manager, evaluate the information in the
application relevant to their areas. If necessary, the primary reviewer can request additional information from the sponsor. Based
on the review, the primary reviewer may make a recommendation on the action FDA should take with respect to the drug. The
primary reviewer’s work is checked by a secondary reviewer within the same discipline.

Advisory Committees. The FDA may convene an advisory committee to assist with the review of an application. The committee
comprises scientific experts from outside FDA and may also have consumer, patient, and industry representatives. The committee
conducts its own review of the application, usually in a public forum, and advises FDA on scientific issues related to the application.
It also votes on the action FDA should take with respect to the drug. The committee’s recommendations are not binding on FDA.

Communication with Sponsors. Throughout the process, FDA and the sponsor communicate through in-person meetings,
telephone conferences, letters, e-mails, and faxes. Communication allows sponsors and FDA to seek clarification, when necessary.

Labeling Negotiations. Toward the end of the review process, FDA and the sponsor negotiatethe drug’s final package label. Each
element of the label requires FDA approval, including the indications, dosing, directions for use, and safety information.

Inspections of Manufacturing andClinical Sites. TheFDA inspects the manufacturingfacilities for the drug. It may also inspect
a sample of clinical trial locations to verify the accuracy of the data contained within the application.

Decision. Once all the reviews are complete, the division director and/or the office director evaluate the reviews and make FDA’s
decision. Five office directors oversee the 15 review divisions. The FDA can take three actions: (1) approval – the drug can be
marketed in the U.S., (2) approvable – problems exist with the application that need to be addressed before the drug may be
approved, and (3) non-approvable – the application has more significant problems that may require additional research on the drug
and may require reformulation of the drug product. The review clock ends once FDA makes its decision and issues a letter to the
sponsor.

ReviewCycles. The first-review cycle begins when FDA receives the application and ends when FDA makes its decision. Multiple
review cycles occur when an application receives an approvable or non-approvable decision from FDA, and the sponsor revises the
application and resubmits it to FDA, startinganother cycle. When the sponsor resubmits the application, the review clock restarts
and FDA receives either 2 or 6 months to review the revised application, depending on the information in the resubmission.

Total Approval Time. Total approval time is from FDA’s receipt of the original application to the application’s approval. This
time can include multiple review cycles and the time spent by the sponsor revising the application between review cycles.


FDA’s Review Process for New Drug Applications                    5                                                    OEI-01-01-00590
                                            FINDINGS

          Our review of FDA’s NDA review process disclosed that it has several strengths that
          contribute significantly to its effectiveness. Both reviewers and sponsors have confidence in the
          decisions FDA makes. Review times have dropped considerably. FDA works more
          collaboratively with sponsors, and it has taken several steps to enhance efficiency and
          consistency. But we also found that workload pressures increasingly challenge its effectiveness.
           Our review included: (1) a survey of CDER reviewers resulting in 401 responses for an
          estimated 47 percent response rate, (2) interviews with over 100 CDER officials and
          stakeholders, including industry representatives, (3) a survey of sponsors resulting in 72
          responses for a 60 percent response rate, and (4) a detailed document review of all 15 new
          molecular entities approved drugs in FY 2001.

          Although reviewers have confidence in the decisions FDA makes, 40 percent of FDA survey
          respondents who had been at FDA at least 5 years indicated that the review process had
          worsened during their tenure in terms of allowing for in-depth, science-based reviews.
          Respondents cited lack of time as the main reason. Reviewer concerns about time goals do not
          mean there is a threat to public health, but they do indicate a significant management issue
          warranting attention. This pressure to meet time goals may also inhibit the raising of disputes as
          reviewers may be reluctant to raise them due to concerns about slowing down the process.
          Twenty-one percent of FDA respondents indicated that the work environment allowed for the
          expression of differing scientific opinions to a small or no extent.

          In addition to workload pressures, other factors challenge the effectiveness of the process.
          These other factors include the rush to finalize drug labels at the end of the review process,
          reviewers’ uncertainty about the types of postmarketing commitments to request of sponsors,
          and limited public disclosure.


FDA’s new drug application review process has several strengths
that contribute significantly to its effectiveness.

Reviewers and sponsors have confidence in the decisions FDA makes.

          Our observations, a review of FDA documents, and extensive interviews with FDA reviewers
          and stakeholders underscored that FDA’s NDA review process is science-based and
          comprehensive. This is supported by the comments of FDA reviewers and sponsors. Seventy-
          eight percent of FDA respondents and 86 percent of sponsors indicated in our surveys that they
          were confident in the decisions FDA makes with regard to a drug’s




FDA’s New Drug Application Review Process             6                                         OEI-01-01-00590
          efficacy. And 64 percent and 82 percent, respectively, were confident in FDA’s decisions
          regarding the safety of a drug.

FDA is highly responsive to the time goals required in the Prescription Drug User
Fee Act and the FDA Modernization Act.

          The CDER met all but 2 of its 20 time goals in FY 2000 (see Appendix C). In meeting these
          goals, it reduced its total approval time for NDAs. In 1993, median total approval time for
          CDER was 27 months for standard NDAs classified as new molecular entities; in 2001 it was
          19 months. The reduction in approval times helps to ensure timely access to new medications
          that can benefit public health. Furthermore, the overall time to develop and market a new drug
          has decreased in part due to FDA’s assistance. In the early 1990s, drugs classified as new
          molecular entities took an average of 7 years to go from clinical testing to the marketplace; by
          1998, the elapsed time dropped to a little over 5 years.4

FDA is highly responsive to the mandate in the Food and Drug Administration
Modernization Act to work collaboratively with sponsors to expedite the drug
review process.

          The FDA Modernization Act requires FDA to hold formal meetings with sponsors upon
          request. FDA has devoted substantial resources to meet this requirement; in FY 2001, CDER
          conducted 1,021 formal meetings with sponsors. In these meetings, most of which occur prior
          to the NDA review process, FDA provides valuable advice to sponsors. The FDA’s advice
          can play an important public health role by helping to facilitate efficient and high quality drug
          development.

          Formal meetings held prior to and during the clinical testing of drugs allow FDA to address
          problems early in the drug development process. Both FDA reviewers and sponsors identified
          early interaction as a strength of the process. According to 94 percent of FDA respondents
          and 96 percent of sponsors responding to our surveys, interaction between sponsors and
          reviewers during this stage contributed to an effective NDA review process. For example, in
          one meeting we observed that FDA encouraged additional toxicity testing of all human subjects
          in the clinical trial when the sponsor proposed testing just a sample of the subjects. In another
          meeting, FDA suggested, based on preliminary data, that the sponsor focus more carefully on
          safety issues as the research progressed. And in several meetings, FDA stressed the
          importance of statistical rigor and of developing a clinical trial design that anticipates how the
          product will be used in clinical practice.

          The FDA and sponsors also meet and discuss issues relating to the content and format of an
          NDA immediately prior to and during the review process. The purpose of this




FDA’s New Drug Application Review Process             7                                         OEI-01-01-00590
          collaborative approach is to produce higher quality NDAs and more efficient reviews. Ninety-
          eight percent of sponsors and 89 percent of FDA respondents reported in our surveys that
          interaction during the NDA review process contributed to an effective review process.

FDA gives considerable attention to synthesizing information across review
disciplines.

          The FDA relies on multi-disciplinary teams to review NDAs. These teams meet throughout the
          review process to discuss the status of their reviews and to share ideas. We observed several
          of these internal meetings and found that the review teams addressed key issues, such as
          additional information to request from sponsors, unresolved safety concerns, labeling issues,
          and postmarketing commitments.

          Seventy-four percent of FDA respondents to our survey indicated that the NDA review
          process adequately integrates information across review disciplines. Time goals have provided
          an incentive for review team members to work on the same application at the same time. In the
          past, review team members tended to review the application sequentially. Now, more dialogue
          occurs among review team members throughout the process. Medical officers and statistical
          reviewers work particularly close and sometimes write a joint evaluation. The FDA also
          locates members of a review team close to one another to encourage more interaction.

FDA has taken several steps to help foster efficiency and consistency in the
process.

          With the funds from user fees, FDA implemented a computer infrastructure that allows it to
          receive NDAs electronically. CDER began accepting NDAs electronically in 1999. Currently,
          about 70 percent of NDAs have some electronic component and one-third are completely
          electronic. Reviewers can now use computer programs to conduct their own analysis of
          databases submitted by sponsors instead of requesting an analysis from sponsors, which can
          lead to delays. Reviewers can also conduct quick searches for key words or phrases in an
          electronic document instead of sifting through hundreds of pages by hand. This is particularly
          helpful when reviewing thousands of individual patient records.

          To help foster consistency, FDA has issued numerous guidance documents and internal
          policies. In 2000 alone, CDER issued about 40 guidance documents, mostly directed toward
          industry. Since 1996, it issued about 140 policies to guide reviewers covering a wide range of
          topics. Although some reviewers are concerned that guidance documents and policies are too
          rigid, FDA’s aim is to ensure that minimum standards are met and




FDA’s New Drug Application Review Process            8                                       OEI-01-01-00590
          key issues are addressed. For example, CDER recently issued a policy requiring reviewers to
          use discipline-specific templates for their written evaluation of NDAs. These templates help to
          ensure that reviewers address key issues in the course of their evaluation and present them in a
          standard format. Sixty-nine percent of FDA survey respondents who had used the templates
          indicated that they were helpful.

FDA relies on a core of expert scientific reviewers.

          The FDA’s in-house expertise is a key asset of the review process. The FDA is comprised of
          hundreds of scientific experts, including physicians, chemists, statisticians, pharmacologists, and
          toxicologists, most of whom have advanced degrees. Reviewers bring scientific and technical
          expertise and a strong commitment to public health. Many have left positions in academia and
          private industry to work at FDA and serve the public. With funds from user fees, FDA has
          expanded its cadre of reviewers. By the year 2002, CDER will have hired about 700
          additional employees using funds from user fees, in addition to the 750 funded through
          appropriations.


But workload pressures increasingly challenge the
effectiveness of the new drug application review process.

          Reviewers work under the constant pressure of the review clock. They not only review NDAs,
          but also conduct other types of review activities, some of which also have time goals attached.
          They must provide advice to sponsors throughout the drug development process and stay
          abreast of the latest scientific advances in their field, both of which contribute to the demands of
          the job. The importance of FDA’s decisions also adds to the pressure, as these decisions have
          serious consequences for public safety. In this section, we address the consequences of these
          workload pressures. In the next section, we address the causes of these pressures.

Reviewer concerns about time pressures.

          An effective review process not only examines the information submitted by the sponsor, but
          also asks what, if any, additional information should have been submitted. For example, have
          all the reasonable safety considerations been explored, and should any additional studies be
          conducted to adequately address safety and efficacy? In raising these questions, reviewers
          must draw upon the experiences of FDA and their own scientific and regulatory knowledge.

          Yet, in this fast-paced environment, reviewers sometimes find it difficult to conduct reviews that
          are as in-depth as they would like. Forty percent of FDA respondents who




FDA’s New Drug Application Review Process              9                                         OEI-01-01-00590
          had been at FDA at least 5 years indicated that the review process had gotten worse in terms
          of allowing sufficient time for in-depth, science-based reviews. Reviewers are particularly
          concerned with priority reviews. According to 58 percent of FDA respondents, the allotted 6
          months for a priority review is inadequate. This is considerably higher than the 25 percent of
          respondents who indicated that the allotted 10 months for a standard review is inadequate.

          Reviewer concerns about time do not necessarily mean that there is a threat to public health.
          We have no evidence of a public health concern nor did we seek such information. But, these
          concerns do indicate a significant management issue warranting attention.

          Despite these concerns, reviewers were confident that FDA’s final decisions regarding NDAs
          are appropriate. Seventy-eight percent of FDA respondents to our survey were confident in
          the efficacy decisions FDA makes. Although reviewers commented in interviews that time
          pressures have made their jobs more difficult, they did not believe that they were ignoring key
          information or data contained in NDAs in order to meet time goals. It is also important to
          acknowledge that FDA received the 4th highest composite score out of the 13 operating
          divisions within the Department of Health and Human Services on the 2002 Secretary’s Quality
          of Work Life Survey on Organizational Climate, which indicates a positive work environment.
          The CDER’s composite score was also high compared to the overall Department.

          The PDUFA III acknowledges the workload pressures that reviewers face and calls for FDA
          to receive more resources. With these additional resources, CDER estimates that it will hire
          close to 300 additional employees over the next 5 years. This will help to alleviate some of the
          workload pressures.

Workload pressures may contribute to less use of advisory committees.

          Advisory committees provide valuable advice to FDA on NDAs. These committees consist of
          independent scientists, researchers, industry representatives, and consumer and patient
          advocates. In our surveys, 78 percent of FDA respondents and 81 percent of sponsors
          indicated that advisory committees were helpful in providing independent advice to the FDA.
          The majority of advisory committees are open to the public and provide an important
          opportunity for public discussion and involvement.

          However, there is little time to hold these meetings and still meet the time goals. Our analysis of
          data from CDER shows less use of advisory committees in recent years. The number of
          advisory committee meetings associated with an NDA decreased from 40 in 1998 to 23 in
          2001 (see Figure 1 on the following page). In part, this decrease may be




FDA’s New Drug Application Review Process             10                                         OEI-01-01-00590
                                    due to a reduction in the number of NDAs that sponsors have submitted in recent years. The
                                    number of NDAs, including both priority and standard, filed by CDER has dropped from 124
                                    in 1997 to 97 in 2001. But, it is also likely that workload pressures are a key contributing
                                    factor. The FDA managers, who determine when an advisory committee should be held,
                                    commented in interviews that the current time goals can discourage the use of advisory
                                    committees. Furthermore, we estimated that the percentage of approved new drugs that had an
                                    advisory committee decreased from 19 percent in 1998 to 12 percent in 2001 (see Table 6 in
                                    Appendix F).


                                       Figure 1. Number of Advisory Committees Held by FDA's Center for Drug Evaluation
                                                            and Research for New Drug Applications

                                                                                                  Total Advisory Committees
                               45
                                                           40                                     Advisory Committees for Standard Drugs
                                                                               39
                               40
                                        35                                                        Advisory Committees for New Molecular Entities
                               35                                                                 Advisory Comittees for Priority Drugs
  No. of Advisory Committees




                                             29                 29                  30
                               30
                                                                                                        26
                               25                                    23                                                     23
                                                                                                             20
                               20                 17                                     17                                      17
                               15
                                                                          11
                               10                                                             9                   8                    9
                                                       6                                                              6                    6
                               5

                               0
                                             1997               1998                 1999                    2000                2001
                                                                               Calendar Year
Source: OIG Analysis of Data from FDA’s Center for Drug Evaluation and Research



                                    Advisory committees compress the time allowed for reviewers to complete their evaluations.
                                    Several reviewers estimated that planning and conducting an advisory committee meeting takes
                                    about 2 months, in part due to requirements for public disclosure. When planning for a meeting,
                                    FDA is required to prepare and submit relevant materials to the advisory committee staff 19
                                    days in advance of the meeting. This allows time for the materials to be distributed to advisory
                                    committee members and the public. The preparation for an advisory committee meeting
                                    compels reviewers to conduct their reviews earlier in the process in order to meet the time goal.
                                     Furthermore, meetings must




FDA’s New Drug Application Review Process                                       11                                                    OEI-01-01-00590
          be scheduled early enough in the process to allow time afterward for reviewers to consider the
          committee’s input. This can be particularly challenging for priority reviews.5

          To help address this issue, PDUFA III calls for FDA to issue guidance on good review
          management principles. One of the areas that this guidance will address is anticipating and
          planning for an advisory committee meeting.

Workload pressures make it difficult to raise scientific disputes.

          It is important that reviewers have the opportunity to raise scientific disagreements, as they can
          help to raise critical questions about the safety and efficacy of a drug and can lead to more
          comprehensive reviews. For the 15 new molecular entities approved in FY 2001, we found
          one documented disagreement. We also found that some reviewers have concerns about
          raising disagreements. In fact, 21 percent of FDA survey respondents indicated that the work
          environment allowed for the expression of differing scientific opinions to a small or no extent.
          Similarly, an internal survey conducted by CDER of its reviewers found that one-third of
          respondents did not feel comfortable expressing their differing opinions. And, on our own
          survey, 18 percent of respondents indicated that they have felt pressure to approve or
          recommend approval for a drug, despite reservations about its safety, efficacy, or quality.
          Reviewers may be reluctant to raise disagreements because they fear slowing down the review
          process. The FDA’s current procedures for handling disputes lack timelines for handling them.

Workload pressures contribute to staff turnover.

          An internal survey conducted by CDER of reviewers found that 50 percent of respondents
          indicated that their workloads are influential reasons to consider leaving FDA. According to
          FDA’s analysis, medical officers and pharmacologists had the highest attrition rates within
          CDER in FY 2001, 8.4 percent and 6.9 percent respectively, compared to the overall average
          attrition rate for reviewers of 5.5 percent.6 Many reviewers leave for private industry, which
          largely includes the pharmaceutical industry. The CDER officials indicated that often they
          cannot compete with the salaries offered by private industry. According to another CDER
          analysis, 26 percent of CDER’s employees went to private industry in FY 2000 and 24 percent
          in FY 2001.7 Hiring and training new reviewers adds to reviewers’ workloads and can take
          time away from review activities.

          The FDA has taken numerous steps to reduce turnover. For example, in October 2000, FDA
          implemented a pilot program to pay pharmacologists and statisticians a retention allowance of
          up to 10 percent of their basic pay.




FDA’s New Drug Application Review Process             12                                        OEI-01-01-00590
Workload pressures curtail time for professional development.

          Staying abreast of scientific developments is essential to reviewer performance. In the meetings
          we observed between FDA and sponsors, the sponsors’ consultants often included leading
          researchers in their fields who are aware of the latest research that bears on the sponsor’s drug
          development plans. They and other sponsor representatives often posed questions to reviewers
          that called for the reviewers to be equally informed of the current research and its implications.
          In our interviews with reviewers, they emphasized to us how vital it is for them to find time to
          stay abreast of the latest developments in their disciplines.

          Fifty-nine percent of FDA survey respondents indicated that they have little time to participate
          in professional development activities. An internal survey conducted by CDER of its reviewers
          obtained similar results; it found 60 percent of respondents did not feel that they had adequate
          time for professional development activities. The seriousness of this issue is further illustrated
          by that same CDER survey that found 25 percent of respondents regarded insufficient time for
          professional development as a reason to consider leaving FDA.

          The FDA has taken several steps to encourage reviewers to participate in professional
          development activities. The FDA has a policy in place to allow reviewers to spend up to one
          day a week participating in professional development activities. The FDA has also developed
          and implemented an extensive internal training program that includes a broad range of classes
          from statistics to technical writing from which reviewers can choose.

Workload pressures allow little opportunity for reviewers to conduct research on
drug development.

          From its review of investigational drug development plans of sponsors and of submitted NDAs,
          FDA has a unique repository of information concerning drug development. The FDA
          reviewers emphasized to us that this repository affords valuable potential that could be highly
          instructive to future drug development efforts. It could, they note, help guide clinical trial
          designs and help identify possible safety concerns that might be more fully addressed as part of
          the drug development process.

          The CDER does award small grants to reviewers to conduct research on drug development
          through its Regulatory Science and Review Enhancement Program. The program has about
          $250,000 of annual funding and funded about 21 projects in FY 2002. But, as we noted with
          respect to professional development, the time available for reviewers to conduct such research,
          without compromising their core review responsibilities, is limited.




FDA’s New Drug Application Review Process             13                                        OEI-01-01-00590
Several factors have contributed to the workload pressures.

Tight deadlines.

          Although time goals have been beneficial, they place reviewers under constant pressure to meet
          deadlines. Reviewers conduct multiple activities, many of which have time goals attached. The
          same reviewers of NDAs also must review clinical trial designs, prepare for meetings with
          sponsors, and review supplements to approved NDAs. This pressure has increased as the
          goals have become progressively more challenging each year as required under PDUFA II.
          For example, in FY 1998, FDA’s goal was to review and act upon 90 percent of standard
          NDAs within 12 months. In FY 2002, the goal was for FDA to review and act upon 90
          percent of all standard NDAs within 10 months (see
          Appendix C).

Staffing limitations.

          Ninety-one percent of FDA survey respondents indicated that their workloads contribute to
          delays. Forty percent of FDA respondents who had been at FDA at least 5 years indicated in
          our survey that the review process had gotten worse in terms of allowing for an in-depth
          review. Lack of staff was a common explanation offered by those respondents. Reviewers
          raised concerns about the need to work overtime to complete their work on time.

          The FDA cannot quickly reallocate its current staff to better accommodate changes in its
          workload. Workloads can vary by division, and staffing patterns do not always match up to the
          current workload. Administrative barriers to reassigning staff make it difficult to quickly adjust.
          Furthermore, FDA has difficulty estimating its workload from year to year. The FDA’s
          workload depends largely on what sponsors submit. The FDA does attempt to estimate the
          number of NDAs that sponsors will submit through discussions with industry.

          As we have already pointed out, PDUFA III acknowledges the limited staffing and calls for
          FDA to receive more resources to be used to hire additional reviewers. The CDER estimates
          it will hire close to 300 additional employees over the next 5 years using funds from user fees.
          This will help to alleviate some of the workload pressures.




FDA’s New Drug Application Review Process             14                                         OEI-01-01-00590
Expectations to serve as an advisor to sponsors as well as a reviewer of new drug
applications.

          Reviewers’ dual roles as advisors and reviewers demand substantial time and resources and
          contribute to workload pressures. The CDER conducted 1,021 formal meetings with sponsors
          in FY 2001, mostly during the investigational new drug stage, prior to the NDA review process,
          when FDA provides advice. When a sponsor’s request is determined to require a meeting,
          which was the case for 94 percent of requests in FY 2001 according to FDA, it has 14 days
          from the receipt of the request to schedule the meeting date. The FDA’s analysis of data from
          CDER and the Center for Biologics Evaluation and Research found that the total hourly
          commitment for staff for a typical meeting ranges from about 124 to 543 hours.8 Reviewers
          expressed concerns about the amount of time these meetings require.

          During the investigational new drug stage, FDA provides advice and information in meetings
          with sponsors, based on an analysis of research plans or preliminary data. This advice is
          intended to improve the drug development process by ensuring that research is well designed, is
          well conducted, and results in pertinent data. Once research is complete and the application for
          a new drug is submitted, FDA reviewers continue to interact with the sponsor, not just as
          advisors, but as reviewers as well. The FDA is responsible for conducting an impartial review
          that will produce sufficient evidence to justify an approval or other decision.

          The FDA’s duties as advisor and reviewer are not necessarily conflicting, but the dual roles do
          add complexity and call for careful attention to boundaries. On the one hand, FDA must work
          with sponsors as partners, helping them to develop well-designed clinical trials and well-
          supported NDAs. On the other hand, it must function as an impartial reviewer of these NDAs
          on the public’s behalf. The PDUFA III calls for FDA to develop guidance on good review
          management principles that will include advice on how to communicate with sponsors during the
          review process.

Shortcomings in some new drug applications.

          Incomplete NDAs contribute to delays in the review process. The 15 drugs we reviewed
          contained, on average, 38 amendments to the original application. Combined, the 15 drugs had
          679 minor and major amendments. Of those amendments, the four most common types were:
          minor clinical (21 percent), minor chemistry (20 percent), minor multi-disciplinary (11 percent),
          and minor labeling (10 percent).

          Some amendments are expected as reviewers raise questions during their reviews. But a large
          number of amendments, especially ones that contain key information, can cause




FDA’s New Drug Application Review Process            15                                        OEI-01-01-00590
          delays. Out of the 15 drugs we reviewed, 11 contained an amendment that FDA classified as
          major. None of those 11 drugs were approved in one review cycle. (FDA defines a major
          amendment as a submission from a sponsor that requires an extension of the time goal. The
          extension can vary from 45 days to 180 days, depending on the amount and type of information
          contained in the amendment.) According to 77 percent of FDA survey respondents,
          amendments that sponsors submit without a request from FDA contribute to delays. Similarly,
          when FDA requests an amendment, 91 percent of FDA respondents reported that waiting for
          sponsors contributes to delays.

          Given the large size of NDAs, disorganization also can create delays in the review process and
          leads to additional amendments. When NDAs are disorganized, reviewers must spend time
          reorganizing information or request that sponsors submit amendments in the proper format, both
          of which can cause delays. Ninety percent of FDA survey respondents indicated that they
          spend time reorganizing data in NDAs. Common concerns include: improperly formatted data,
          missing information, incorrect analyses, unedited data sets, large amounts of irrelevant data,
          inconsistent tables, and difficult-to-locate materials.

          Although FDA can refuse to file applications, it rarely does so. The CDER refused to file 4
          percent of submitted applications in FY 2000, down from 17 percent in 1993. In part, this
          decrease may be attributable to the advice FDA provides sponsors that helps them prepare
          higher quality applications. However, reviewers commented that FDA accepts some
          applications that it should not accept. One reviewer characterized FDA as a “victim of its own
          kindness,” referring to the time and effort required to assess and integrate so many amendments
          after it files an application that it should have refused. Even one application filed that should
          have been refused can have significant consequences for FDA’s workload. Once filed, FDA
          must take time to document the deficiencies and provide advice to sponsors on what to include
          if the sponsor chooses to resubmit the application.

Concerns about inefficiencies in the review process.

          As we have already pointed out, FDA has taken numerous steps to enhance efficiency in the
          process. However, inefficiencies still remain, and they can contribute to workload pressures.
          Reviewers commented that they do not receive documents quickly enough. It can take days
          and sometimes weeks for documents to be routed to them. Many reviewers were concerned
          that they spend too much time handling administrative or basic research tasks that could be
          more easily addressed by others. For example, several of the scientific reviewers indicated that
          they spend time scanning documents into the computer, conducting basic literature searches,
          creating simple charts and tables, and preparing correspondence to sponsors.




FDA’s New Drug Application Review Process            16                                        OEI-01-01-00590
          Sponsors also raised concerns about inefficiencies. They were concerned that reviewers do
          not start their reviews soon enough, creating bottlenecks later in the process. Sponsors
          suggested that if FDA communicated the deficiencies earlier, they could prepare the materials
          so that all the information FDA needs would be available when the actual review took place.
          Sponsors were also concerned about inconsistencies in the process. Seventy-five percent of
          sponsors responding to our survey indicated that FDA reviews are inconsistent across the 15
          review divisions within CDER. One sponsor commented that these inconsistencies may prompt
          some sponsors to shop for review divisions when a drug could be classified under different
          therapeutic review divisions.

          The FDA has conducted few efforts to identify and eliminate inefficiencies in the review
          process. Forty-eight percent of FDA survey respondents indicated that FDA was not doing
          enough quality improvement activities. The FDA lacks estimates of how long it takes reviewers
          to conduct their various activities, and has not conducted a comprehensive review to identify
          areas of bottlenecks. In 2001, CDER established the Review Standards Staff to lead quality
          improvement efforts.

          The PDUFA III calls for FDA to take numerous steps aimed at improving efficiency. Most
          notably, FDA will examine first-cycle reviews to determine best practices that facilitate a timely
          review. It calls for FDA to develop good review management principles that will include
          guidance on completing primary reviews early enough in the process to allow for sufficient
          deliberations. The PDUFA III calls for FDA to set aside $7 million from users fees to conduct
          a wide range of studies aimed at fostering efficiency and effectiveness.


Other factors also challenge the effectiveness of the new
drug application review process.

Rush to finalize labels at the end of the review cycle.

          Labels, which FDA approves as part of the NDA review process, are a key leverage point for
          FDA. The label provides the parameters on how a company can market a drug and provides
          key information concerning its safe and effective use, such as indications, dosages,
          contraindications, warnings, and precautions.9 Both FDA respondents and sponsors were
          confident in the labeling decisions FDA makes, 70 and 81 percent respectively, indicated as
          such on our surveys.

          However, we found that labeling negotiations are considerably rushed at the end of the review
          process and can occur right up to the day the drug is actually approved. To some extent,
          labeling negotiations must occur toward the end of the review process, after



FDA’s New Drug Application Review Process            17                                         OEI-01-01-00590
          reviewers have evaluated the data in the NDA and are familiar with the drug’s efficacy and
          safety, but it appears to be too compressed. For the 15 new molecular entities we reviewed,
          we found that 27 percent of labeling amendments were submitted in the last 14 days. Eighty-
          two percent of FDA respondents indicated on our survey that the labeling negotiations can
          contribute to delays. Labeling negotiation can even lead to another review cycle. FDA’s
          analysis of 26 new molecular entities approved by CDER between January 1, 2000, and
          October 31, 2001, found 2 drugs that were not approved in one review cycle primarily due to
          labeling.

          The rush to finalize labels at the end may be in part caused by the lengthy negotiations that can
          occur between FDA and the sponsor over the label. Some of this interaction reflects the
          different perspectives of each. Sponsors are looking to obtain the best position to market their
          drugs, as the label serves as the legal basis from which they can advertise their drugs. Sponsors
          may also be concerned with liability issues and may want to list every possible adverse event.
          The FDA is primarily concerned with ensuring that the label provides useful information to
          health care professionals. Tension can erupt between what information is clinically significant
          versus what information is important for advertising and liability purposes.

          The PDUFA III will help to address this issue. It calls for FDA to develop guidance on good
          review management principles. This guidance will address labeling feedback, including planning
          and holding meetings regarding labeling in advance of the time goal. In addition, FDA has
          several other efforts underway to further help alleviate the pressures associated with labeling
          negotiations. The FDA has proposed new regulations for the content and format of drug labels
          that make more explicit FDA’s expectations and call for key information to be prominently
          displayed in a new highlights section.10 The FDA issued two draft guidance documents
          regarding the adverse event section and the clinical studies section of labels that clarify what
          information sponsors should include in those areas.11 The FDA proposed new regulations
          requiring sponsors to submit labels in electronic format to facilitate the creation of a labeling
          database that would make it easier to compare labels. Finally, FDA has a pilot project called
          Targeted Product Information that allows sponsors to submit a draft label to FDA at any time
          throughout the drug development process to help focus labeling discussions earlier in the
          process.

Uncertainty about the types of postmarketing commitments to request of
sponsors.

          The ability to influence the postmarketing commitments made by the sponsor represents another
          key leverage point for FDA. As part of its approval decisions, FDA can request that sponsors
          commit to specific activities to manage the risks associated with their drugs. The most typical
          postmarketing commitment requested by FDA is to conduct additional




FDA’s New Drug Application Review Process            18                                        OEI-01-01-00590
          studies after the drug is on the market to further define its safety and efficacy. When a drug
          raises serious safety concerns, FDA can also request that sponsors establish patient registries,
          restrict distribution to certain populations, and/or ensure patients receive counseling from a
          pharmacist. According to a recent FDA report submitted to Congress, between 1991 and
          2001, FDA approved 1,090 NDAs and sponsors agreed to conduct 2,328 postmarketing
          studies. That same report found that as of February 8, 2002, sponsors had completed 882 of
          the 2,400 postmarketing commitments on file at FDA for drugs.

          Postmarketing commitments are critical given that FDA does not know all the risks associated
          with a drug at the time of its approval. Reviewers commented that they are often unsure what
          types of postmarketing commitments to request of sponsors. Little empirical evidence is
          available that demonstrates the effectiveness of these commitments. Sponsors were also unsure
          how FDA determines what types of commitments to request of sponsors.12 Sixty-six percent
          of FDA respondents indicated on our survey that they were somewhat or not at all confident
          that FDA adequately monitors the safety of prescription drugs once they are on the market.

          The FDA has already taken numerous steps to help address this issue. In part due to a 1996
          OIG study, Postmarketing Studies of Prescription Drugs (OEI-03-94-00760), that found
          FDA lacked formal standards to track these commitments, FDA has put in place new policies
          and procedures to better track these commitments. The PDUFA III also gives considerable
          attention to the issue of postmarketing commitments. First, it calls for FDA to hold meetings
          with sponsors prior to the submission of the NDA to review and discuss sponsors’ preliminary
          risk management plan. Second, it calls for FDA to review sponsors’ proposed risk
          management plans as part of an NDA. Third, it allows FDA to use funds from user fees to
          review sponsors’ implementation of the risk management plans for a period of up to 2 years,
          and up to 3 years for products that require risk management beyond standard labeling. Finally,
          it calls for FDA to issue three guidance documents addressing risk assessment, risk
          management, and pharmacovigilance practices that should help to provide some clarity on
          FDA’s expectations.

Limited disclosure to the public about the basis of key decisions concerning new
drug applications.

          No summary basis for approval. We reviewed information on CDER’s website regarding
          the 15 new molecular entities approved in FY 2001, and in no case did it provide a summary
          document that explains the overall basis for the approval. It does not routinely provide this type
          of summary information nor is it required to do so.13 The lack of this summary information
          makes it difficult for sponsors and the public to understand the criteria FDA uses to make its
          decisions. FDA does provide technical information on




FDA’s New Drug Application Review Process            19                                         OEI-01-01-00590
          its website on approved drugs, but it consists of hundreds of pages of highly scientific

          documents for each drug. The FDA also posts approval letters on its website. However, they

          are largely administrative documents. 


          Drug approval documents are not promptly disclosed on FDA’s website. We found that

          it took CDER 7.6 months after the date of approval, on average, to post reviewer evaluations

          on its website for the 15 drugs we reviewed. The FDA’s goal is to have the reviewer

          evaluations and other technical documents, such as the label and approval letter, posted on its

          website within 6 weeks of approval. Redacting proprietary information and waiting for

          reviewers to compile their documentation into a formal package after the drug has been

          approved can cause delays.


          Limited disclosure about FDA’s decisions not to approve drugs. When FDA decides not

          to approve a drug, it issues one of two types of action letters: an approvable or non-approvable

          letter. These letters explain in detail the deficiencies FDA found with the application. 

          However, approvable letters are not disclosed to the public at the time they are issued, and

          non-approvable letters are almost never disclosed. The FDA regulations limit the public

          disclosure of approvable and non-approvable letters. An approvable letter is disclosed to the

          public if the drug is later approved, which can be months or years after the letter was issued. 

          As a result, the public remains largely unaware of FDA’s rationale for not approving drugs.





FDA’s New Drug Application Review Process            20                                       OEI-01-01-00590
                                            CONCLUSION

          Our review of FDA’s NDA review process disclosed that it has several strengths that
          contribute significantly to its effectiveness. Both reviewers and sponsors have confidence in the
          decisions FDA makes. Review times have dropped considerably. The FDA works
          collaboratively with sponsors and has taken several steps to enhance efficiency. But we also
          found that workload pressures increasingly challenge the effectiveness of the process. For
          example, 40 percent of FDA survey respondents who had been at FDA at least 5 years
          indicated that the review process had worsened during their tenure in terms of allowing for in-
          depth, science-based reviews. Respondents cited lack of time as the main reason. Reviewer
          concerns about time goals do not mean that there is a threat to public health, but they do
          indicate a significant management issue warranting attention. These pressures can also
          discourage the use of advisory committees, inhibit the raising of scientific disputes, reduce the
          time available for professional development, and contribute to staff turnover.

          Three other factors also challenge the effectiveness of the review process: (1) the rushed review
          of drug labels toward the end of the review process, (2) the limited guidance available to
          reviewers in determining the extent and the type of postmarketing commitments to request of
          sponsors, and (3) the limited information that FDA makes available to the public on the basis
          for its decisions concerning NDAs. Considered as a whole, our findings present a significant
          warning signal, one that could jeopardize gains FDA has made in recent years, if not fully
          addressed.

          We recognize that FDA has already identified many of the concerns presented in this report
          and has numerous efforts underway to address them. In particular, the enactment of PDUFA
          III, which FDA played a critical role in developing with sponsors, presents significant
          opportunities to address many of our findings. It calls for an increase in user fees that will allow
          FDA to hire close to 300 additional employees. Over time, this could help considerably in
          relieving the workload pressures that we have emphasized. In addition, PDUFA III calls for
          FDA to conduct various activities that will address efficiency, consistency, labeling negotiations,
          and the use of advisory committees. It calls for significant attention to be placed on
          postmarketing commitments, by allowing user fees to be used to monitor drugs after they are on
          the market. It also calls for FDA to issue guidance on developing risk management plans.

          Our first recommendation offers additional steps for FDA to take as it implements PDUFA IIII
          to ensure that the agency takes full advantage of its opportunities. Although PDUFA III
          presents opportunities, other issues still remain. Accordingly, our last four recommendations
          outline additional actions that FDA can take to improve the NDA process. We direct all our
          recommendations to CDER.




FDA’s New Drug Application Review Process             21                                         OEI-01-01-00590
                              RECOMMENDATIONS

1. Take full advantage of the opportunities in PDUFA III.

          <	 Conduct a retrospective examination of recent reviews to determine the capacity of
             reviewers to conduct in-depth, science-based reviews. Make this review a part of the $7
             million performance management fund that PDUFA III establishes. Include in this review
             drugs that were approved, as well as those that were not; different review divisions; and an
             assessment of the completeness and organization of applications submitted by sponsors.

          <	 Evaluate the adequacy of current staffing levels and the workload distribution among the 15
             review divisions within CDER, and implement a system that in real time would indicate the
             status of an application and the time spent in reviewing its specific parts. Conduct this
             evaluation as part of the comprehensive process review and analysis that PDUFA III
             requires FDA to undergo.

          <	 Assess how amendments to the original application, internal processing delays, and labeling
             negotiations affect FDA’s capacity to make timely, first-cycle review decisions. Include
             this assessment as part of the examination of first-cycle reviews that PDUFA III requires.

          <	 Examine how continuous marketing applications affect not just the efficiency, but also the
             quality of the review process. The PDUFA III requires FDA to conduct a pilot project to
             test the concept of continuous marketing applications that involves FDA reviewing sections
             of an application prior to the submission of the complete application.

          <	 Provide a guidance document for reviewers addressing the scope of the filing review and
             monitoring the effect that early notification to sponsors has on reviewer workloads. The
             PDUFA III requires FDA to notify sponsors within 14 days after the filing review of any
             deficiencies it has noted thus far in the application.

          <	 Offer further guidance on the best way to handle scientific disputes that occur among
             reviewers and how to balance the role of reviewing NDAs and the role of providing advice
             to sponsors concerning those applications. Provide this guidance as part of the good
             review management principles that PDUFA III requires FDA to develop and implement.




FDA’s New Drug Application Review Process           22                                        OEI-01-01-00590
          <	 Include case studies of past reviews as part of the training on good review management
             principles that PDUFA III requires. Case studies serve as a way to illustrate good review
             principles and foster consistency among divisions.

          <	 Provide a list of the various postmarketing commitments that reviewers can request of
             sponsors and suggestions for when each could be considered. Include this as part of the
             risk management guidance documents that PDUFA III requires. In making suggestions on
             when to use each tool, take into account the population most likely to be using the drug, the
             severity of the disease, and drug interactions.

2. Determine whether the significant workload pressures discussed in this report
justify any exceptions to the current time goals regarding new drug applications
to allow for more in-depth reviews.

          As we have indicated, the Prescription Drug User Fee Act and the FDA Modernization Act
          have been positive forces for the review process. They have fostered a productive,
          collaborative relationship between FDA and sponsors, a more expeditious drug development
          and review process, and a more efficient and systematic review process within FDA. Yet, it is
          important that an appropriate balance exists between timeliness and comprehensive reviews.
          Our data show that reviewers have concerns about the amount of time available to conduct
          their reviews, and this is an important management issue warranting attention. Accordingly,
          FDA could examine further if it would be beneficial to extend the review clock, perhaps by 1 or
          2 months, when it chooses to use an advisory committee. Also, it could examine if it would be
          beneficial to modify the current 10-month time goal for standard NDAs perhaps by 1 or 2
          months. Some moderation in time goals could help to reduce workload pressures and lead to
          fewer review cycles.

3. Reject applications that are incomplete and of poor quality that can create
delays in the new drug application review process.

          Toward that end, FDA could reexamine its policies regarding refusal-to-file decisions to ensure
          that they are adequately explicit. It could ensure that all review divisions within CDER
          appropriately apply its policies. It could also examine its current guidance to sponsors on
          submitting applications to ensure that it makes clear FDA’s expectations.




FDA’s New Drug Application Review Process            23                                       OEI-01-01-00590
4. Provide the public with a clear and timely explanation of decisions on new drug
applications.

          Disclosure is particularly important given that so much of the process is closed to the public and
          that industry pays for these reviews. We recommend two directions that FDA take to enhance
          public disclosure.

          The FDA could include on its website, within a month, if possible, a succinct explanation of its
          rationale for approving an application. The agency is already moving in this direction by
          requiring reviewers to provide executive summaries as part of discipline-specific templates.
          These summaries could provide the basis for the overall summary. Such information would
          help convey to the public, as well as to sponsors, the criteria FDA uses in making its decisions.
          Over time, this could lead to improved drug applications.

          The FDA could provide the same public explanation on a timely basis when it decides not to
          approve an application. We recognize that this will likely require regulatory changes. The
          rationale for FDA’s decision could be conveyed in ways that protect proprietary
          considerations. Disclosing such information would help convey to the general public the
          independent role that FDA plays in the review process, and that FDA does not approve all
          drugs.

5. Conduct or support research that takes greater advantage of its vast clinical
trial databases to identify ways to improve drug development.

          We found that FDA has little time to take advantage of its unique perspective on the drug
          development process. Accordingly, we recommend that FDA conduct or support research
          that takes greater advantage of its vast clinical trial databases to identify ways to improve drug
          development. We recognize that such research will use scarce resources, but, over time, the
          results could be highly cost-effective, contributing to better clinical designs and more efficient
          drug development.


AGENCY COMMENTS

          The FDA reviewed a draft of this report, and overall, it concurred with our conclusions and
          recommendations. In its comments, FDA outlined numerous activities it has underway or
          planned to address our recommendations. Specifically, FDA indicated that it is reviewing its
          workload distribution and has studies underway to examine delays in the review process. The
          full text of FDA’s comments can be found in Appendix A.




FDA’s New Drug Application Review Process             24                                         OEI-01-01-00590
                                                               APPENDIX A


                                            Agency Comments





FDA’s New Drug Application Review Process          25               OEI-01-01-00590
                                                 APPENDIX A




FDA’s New Drug Application Review Process   26        OEI-01-01-00590
                                                 APPENDIX A




FDA’s New Drug Application Review Process   27        OEI-01-01-00590
                                                 APPENDIX A




FDA’s New Drug Application Review Process   28        OEI-01-01-00590
                                                                                                        APPENDIX B


                                                         Glossary


Approvable: An action assigned to the new drug application (NDA) at the end of the review process when problems
exist with the application that need to be addressed before the drug product may be approved.

Class I resubmission: An application resubmitted after an approvable or non-approvable letter has stated
deficiencies in the following areas: final printed labeling, draft labeling, safety updates, stability updates, phase IV
commitments, assay validation data, final release testing on the last 1-2 manufacturing lots (used to support
approval), minor reanalysis of data previously submitted to the application, and/or other minor clarifying information.

Class II resubmission: An application resubmitted after an approvable or non-approvable letter has stated other
deficiencies not under a Class I resubmission including items that require an advisory committee meeting.

Clinical hold: A decision made by the Food and Drug Administration (FDA) to stop a clinical trial if there is reason
to believe the study cannot be conducted without unreasonable risk to the human subjects enrolled in the trial. The
sponsor must address FDA’s concerns before the hold is lifted.

Clinical trials or clinical studies: A scientific study with human subjects to examine a drug’s safety and efficacy.

Drug development process: The entire process of bringing a drug to market. The process includes laboratory and
animal testing of the drug, the investigational NDA to FDA, the clinical trials, and finally the submission of the NDA
to FDA for marketing approval.

Efficacy supplement: Additional efficacy data submitted by a sponsor to FDA for an already approved drug. FDA
requires an efficacy supplement when a sponsor seeks approval for a new indication.

Indications: Symptoms or conditions that indicate a specific medical treatment. When FDA approves a drug it is
approved for a specific indication(s) that is described on the drug’s label.

Investigational NDA: An application submitted by a sponsor to FDA technically seeking exemption from the federal
law that prohibits the shipping of an unapproved drug across state lines. The intent of the application is to provide
data to FDA documenting that it is reasonable to begin clinical trials in humans with the drug. If FDA determines that
the data are insufficient to proceed, it can place the trials on hold.

Manufacturing supplement: Information submitted by the sponsor to FDA on manufacturing changes to an already
approved drug.

New Drug Application (NDA): An application submitted by a sponsor to FDA to obtain approval to market a drug in
the United States.

New molecular entity: A drug that contains an active ingredient that has never been approved for marketing in the
United States. It can be submitted as either a standard NDA or a priority NDA.

Non-approvable: An action assigned to the NDA when, at the end of the review process, significant deficiencies exist
in the application that may require additional research on the drug product or reformulation of the drug product before
the application can be approved.




 FDA’s New Drug Application Review Process                      29                                                    OEI-01-01-00590
                                                                                                      APPENDIX B


Primary reviewer: An FDA employee who conducts the bulk of the review by evaluating the data in the NDA and
recommends the action FDA should take on a drug. Primary reviewers include clinicians, pharmacists,
pharmacologists, statisticians, microbiologists, and chemists.

Priority NDA: Priority applications are for drugs that are a significant improvement over drugs already on the market
to treat the same condition.

Project manager: An FDA employee who manages the NDA by tracking the application’s status and scheduling
FDA internal meetings as well as meetings with sponsors. The project manager is a liaison between FDA and the
sponsor.

Postmarketing surveillance: FDA’s efforts to monitor the safety of a drug after it is on the market, which includes
monitoring adverse event reports.

Review clock: The review clock is the time between FDA’s receipt of the application and FDA’s decision. The
PDUFA III calls for FDA to review and act upon 90 percent of standard NDAs within 10 months and 90 percent of
priority applications within 6 months.

Review cycle: The first review cycle is from FDA’s receipt of the initial application to FDA’s decision. Multiple
review cycles occur when an application receives an approvable or non-approvable decision from FDA, and then the
sponsor revises the application and resubmits it to FDA. When the sponsor resubmits the application, the review
clock restarts and FDA receives either 2 or 6 months to review the revised application, depending on the information
in the resubmission.

Secondary reviewer: An FDA employee who reviews the primary reviewer’s work. Secondary reviewers include
clinicians, pharmacists, pharmacologists, statisticians, microbiologists, and chemists.

Sponsor: A person or entity that is responsible for a drug’s development. It can be an individual, government
agency, or a pharmaceutical company.

Standard NDA: Standard applications are for all applications not classified as priority.

Total approval time: Total approval time is the time from the date of FDA’s receipt of the original application to the
date of the application’s approval. This time can include multiple review cycles and the time spent by the sponsor
revising the application between review cycles.




 FDA’s New Drug Application Review Process                     30                                                  OEI-01-01-00590
                                                                                                  APPENDIX C



              Time Goals for FDA’s Center for Drug Evaluation and Research

                               Table 1. Time Goals for FDA’s Center for Drug Evaluation and Research
                               (M=met, F=failed to meet, N=data not yet available, and NA=not applicable)

                             Action                                   FY 2000                 FY 2001                    FY 2002

1. Review and act on priority applications.                   90% in 6 months (M) 90% in 6 months                 90% in 6 months      (N)
                                                                                  (M)

2. Review and act on standard applications.                   90% in 12 months (M) 90% in 12 months (N)                             (NA)

3. Review and act on standard applications.                   50% in 10 months (M) 70% in 10 months (N) 90% in 10 months (N)

4. Review and act on Class I resubmissions.                   90% in 4 months     (M)                   (NA)                        (NA)

5. Review and act on Class I resubmissions.                   70% in 2 months (M) 90% in 2 months (F) 90% in 2 months (N)

6. Review and act on Class II resubmissions.                  90% in 6 months     (M) 90% in 6 months             90% in 6 months (N)
                                                                                      (M)

7. Review and act on priority efficacy supplements.           90% in 6 months     (M) 90% in 6 months (F) 90% in 6 months              (N)

8. Review and act on standard efficacy supplements.           90% in 12 months (M) 90% in 12 months (N)                             (NA)

9. Review and act on standard efficacy supplements.           50% in 10 months (M) 70% in 10 months (N) 90% in 10 months (N)

10. Review and act on manufacturing supplements, prior        90% in 6 months     (M) 90% in 6 months             90% in 6 months      (N)
approval not required.                                                                (M)

11. Review and act on manufacturing supplements, prior        90% in 6 months (M) 90% in 6 months                                   (NA)
approval required.                                                                (M)

12. Review and act on manufacturing supplements, prior        50% in 4 months     (M) 70% in 4 months             90% in 4 months      (N)
approval required.                                                                    (M)

13. Notify requestor of meeting within 14 days.               80% on time        (M) 90% on time            (F)   90% on time         (N)

14. Schedule Type A meetings within goal date or within 14 80% on time           (M)    90% on time         (F)   90% on time         (N)
days of requested date, if longer. Goal date is 30 days.

15. Schedule Type B meetings within goal date or within 14 80% on time            (F)   90% on time         (F)   90% on time         (N)
days of requested date, if longer. Goal date is 60 days.

16. Schedule Type C meetings within goal date or within       80% on time        (M) 90% on time            (M) 90% on time           (N)
14 days of requested date, if longer. Goal date is 75 days.

17. Prepare meeting minutes within 30 days of meeting.        80% on time        (M)    90% on time         (F)   90% on time         (N)

18. Respond to sponsor’s appeal of decision within 30         80% on time        (M)    90% on time         (M) 90% on time           (N)
days of receipt of sponsor’s appeal.

19. Respond to sponsor’s complete response to a clinical      90% on time         (F)   90% on time         (F)   90% on time         (N)
hold within 30 days of receipt of request.

20. Respond to sponsor’s request for an evaluation of       70% on time          (M) 80% on time            (M) 90% on time           (N)
protocol design within 45 days of protocol and evaluations.

Source: FDA’s Center for Drug Evaluation and Research



       FDA’s New Drug Application Review Process                31                                                OEI-01-01-00590
                                                                                     APPENDIX D



                                            Highlights of PDUFA III

        In June 2002, user fees were reauthorized as part of the Public Health Security and Bioterrorism
        Preparedness Act of 2002. The part of the Act addressing user fees is referred to as PDUFA
        III. Below, we highlight the provisions within PDUFA III that have the most relevance to our
        inquiry.14

Increased resources

        According to a press release from the U.S. Department of Health and Human Services “the law
        puts PDUFA III on sound financial basis.”15 The PDUFA III calls for an increase in user fees.
        In FY 2002, FDA, including both the Center for Biologics Evaluation and Research and the
        Center for Drug Evaluation and Research (CDER), estimates that it will collect approximately
        $160 million in user fees. The PDUFA III increases the total funds from these fees to about
        $223 million in FY 2003, and gradually increases it over the next 5 years, to about $260 million
        in FY 2007. With these funds, CDER estimates that it will hire close to 300 employees over the
        next 5 years. The funds will also be used to improve CDER’s computer infrastructure.

Time goals

        All existing time goals for FY 2002 for reviewing key documents and other administrative tasks
        remain in place under PDUFA III (see Appendix B for the current time goals). In addition, it
        adds four new goals.

        The first two new goals are for resubmitted efficacy supplements. The FDA will review and act
        on Class I resubmitted efficacy supplements within 6 months for 90 percent of supplements in
        FY 2003 and for 30 percent of supplements within 2 months. By FY 2007, the goal increases
        to 90 percent within 2 months. The PDUFA III also calls for FDA to review and act on Class II
        resubmitted efficacy supplements within 6 months of receipt. This goal remains constant over
        the next 5 years.

        The third new goal is for notifying sponsors of issues identified during the filing review. FDA will
        notify the sponsor within 14 days after the 60-day filing review of any deficiencies it has noted
        thus far in the application. It will meet this goal date for 50 percent of applications in FY 2003,
        70 percent in 2004, and 90 percent in FY 2005, 2006, and 2007.




FDA’s New Drug Application Review Process             32                                        OEI-01-01-00590
                                                                                    APPENDIX D


        The fourth new goal applies to reviewable units, which we address below.

Studies to improve the management of the process

        The PDUFA III calls for FDA to set aside $7 million from user fees to undertake initiatives to
        improve the drug review process. These studies are intended to foster improvement in many
        areas, such as professional development, consistency, efficiency, effectiveness, and improved
        communication.

        One of these studies will seek to evaluate FDA’s first-cycle review performance and the impact
        of good review management principles. This assessment will examine all first-cycle reviews and
        identify best practices that allow for more efficient reviews. Another study will be a
        comprehensive process review and analysis that examines review management.

Pilot programs to test the concept of continuous marketing applications

        The PDUFA III calls for FDA to conduct two pilot projects to determine whether early review
        of sections of new drug applications and additional feedback with sponsors throughout the drug
        development process lead to faster review times. The FDA will hire a consultant to evaluate
        each pilot project.

        Under the first pilot project, FDA will review a complete section of an NDA separately, prior to
        the submission of the entire application, in reviewable units. Each reviewable unit will have its
        own review time of 6 months. This pilot project only applies to fast-track drugs, which are
        drugs intended to treat serious or life-threatening illnesses and demonstrate the potential to meet
        an unmet medical need. Between 1998 and 2001, FDA approved 12 fast-track drugs.

        Under the second pilot project, FDA will enter into an agreement with a sponsor to provide
        feedback and interaction throughout the drug development process. This pilot project is also
        limited to fast-track drugs and further limited to one agreement with a sponsor per review
        division.




FDA’s New Drug Application Review Process           33                                         OEI-01-01-00590
                                                                                         APPENDIX D


Good review management principles

        The PDUFA III calls for FDA to develop guidance on good review management principles that
        addresses the filing review process, communication with sponsors, planning for advisory
        committee meetings, primary review completion, and labeling feedback. The FDA will also
        develop and implement a training program for new and current employees on these good review
        management principles.

Guidance on risk management practices

        For the first time, PDUFA III allows FDA to use funds from user fees towards postmarketing
        surveillance. The FDA anticipates hiring additional postmarketing reviewers.

        The PDUFA III calls for several new initiatives related to improving risk management. One of
        these is a package sponsors may submit prior to the submission of a new drug application that
        contains the sponsors’s anticipated risk management plan and safety assessment for the drug.
        This package serves as the basis for a meeting between FDA and the sponsor to discuss the
        safety profile and the risk management plan for the drug. The FDA will accept and review risk
        management plans as part of a new drug application and will communicate, as early in the
        process as practicable, any safety issues that must be addressed in order to obtain approval.
        After the drug is approved, FDA will review the sponsor’s implementation of the risk
        management plan for 2 to 3 years, referred to as the periapproval period, and will require safety
        reports during this period.

        Finally, FDA will issue guidance to address good risk assessment, risk management, and
        pharmacovigilance practices. And, FDA will inform the public if sponsors fail to complete their
        postmarketing commitments.

Additional efforts

        The PDUFA III calls for the simplification of action letters. The FDA will move towards two
        types of action letters, approval and complete response, instead of the three types it currently
        uses — approval, approvable, and non-approvable. It calls for each reviewer to submit an
        information request letter immediately after an initial review that lists the deficiencies. It calls for
        an extension of the goal date by 3 months, when a sponsor submits a major amendment to an
        original application, efficacy supplement, or resubmission within 3 months of the goal date.




FDA’s New Drug Application Review Process              34                                           OEI-01-01-00590
                                                                                                   APPENDIX E



                                                     Rate of Withdrawn Drugs

                          Figure 2 shows the percentage of new molecular entities withdrawn by the calendar year of their
                          approval. The PDUFA was first implemented on 10/1/92. Data for calendar year 2002 is as of
                          4/30/02.



                                Figure 2. Rate of New Molecular Entities Withdrawn During 1983-2002
                                                 By Calendar Year of Their Approval

                         5.0%
                         4.5%
                         4.0%
    Rate of Withdrawal




                                             3.70%                                            3.60%
                         3.5%
                         3.0%
                         2.5%                                        2.50%
                         2.0%
                                                                                                                        1.70%
                         1.5%
                         1.0%
                         0.5%
                         0.0%
                                     1983-1987                1988-1992                1993-1997                1998-2002
                                                                 Calendar Year of Approval

Source: CDER’s Analysis




  FDA’s New Drug Application Review Process                         35                                       OEI-01-01-00590
                                                                                                     APPENDIX E


                           Figure 3 shows the percentage of new molecular entities withdrawn by the fiscal year of their
                           receipt. The PDUFA was first implemented on 10/1/92. Data for calendar year 2002
                           is as of 4/30/02.


                                Figure 3. Rate of New Molecular Entity Withdrawn During 1983-
                                             2002 By Fiscal Year of Their Receipt


                         5.0%
                         4.5%
                         4.0%
    Rate of Withdrawal




                                                                                        3.10%
                         3.5%
                                        2.70%                    2.60%
                         3.0%
                         2.5%
                                                                                                                     2.30%
                         2.0%
                         1.5%
                         1.0%
                         0.5%
                         0.0%
                                     1983-1987                1988-1992               1993-1997                1998-2002
                                                                   Fiscal Year of Receipt
Source: CDER’s Analysis




    FDA’s New Drug Application Review Process                         36                                        OEI-01-01-00590
                                                                                     APPENDIX F



                                            Methodology

Survey of CDER Reviewers

        We created a web-based survey for CDER officials using Raosoft EZSurvey® software. We
        pretested the survey with several CDER reviewers and managers. The CDER hosted the survey
        on its Intranet. We sent an e-mail notifying all employees within CDER about our survey
        indicating the individuals who should participate. We asked for all primary, secondary (e.g.,
        team leader) and tertiary reviewers (e.g., division director) across all review disciplines including
        postmarketing divisions to fill out the survey. The survey was voluntary and anonymous, unless
        respondents chose to disclose their name and contact information. Respondents could also print
        out the survey to send directly to our office or request a copy be sent to them. We sent one
        reminder electronically midway through the collection period.

        We used EZSurvey® software to tabulate the results of the survey. Based on numbers obtained
        from CDER, we estimated that 846 reviewers were eligible to complete the survey. After
        removing 2 duplicates, we received a total of 401 responses to our survey, yielding an estimated
        response rate of 47 percent. (See Tables 2 - 4 for descriptive information on the CDER
        respondents.) We tabulated the results by the length of service of the respondent; the level of
        the respondent i.e., primary, secondary, or tertiary reviewer; and the scientific discipline of the
        respondent. We were unable to do a non-respondent analysis since the survey was anonymous.

        This survey had three main limitations. First, non-responses may have occurred because of
        technical problems using the web-based survey. Some respondents complained that the website
        disconnected while they were filling out the survey. Second, although our survey was
        anonymous and we did not collect the Internet Protocol (a computer’s address), which could
        indirectly identify the respondent, some respondents may have not participated out of concerns
        for their anonymity. Third, although survey access was limited to CDER employees, the
        potential exists that some individuals not in our intended population completed the survey.




FDA’s New Drug Application Review Process           37                                          OEI-01-01-00590
                                                                                          APPENDIX F



                               Table 2. Number of CDER Respondents by Review Discipline


                                                                                   Percent of CDER
                      Review Discipline             No. of CDER Respondents
                                                                                    Respondents


         Blank                                                                5                      1%

         Chemistry, Manufacturing, and                                     48                        12%
         Controls

         Clinical                                                        107                         27%

         Clinical Pharmacology,                                            96                        24%
         Biopharmaceutics, Pharmacology,
         and Toxicology

         Labeling Reviewer (Division of Drug                               14                        3%
         Marketing, Advertising, and
         Communications)

         Microbiology (product quality and                                 13                        3%
         clinical efficacy)

         Pharmacovigilance                                                 12                        3%

         Regulatory Project Management                                     46                        11%

         Statistics                                                        38                        9%

         Trade Name Reviewer (Office of                                       6                      1%
         Drug Safety)

         Other                                                             16                        4%

                                            TOTAL                        401                     100%

         Source: OIG Survey of CDER Officials




FDA’s New Drug Application Review Process               38                                      OEI-01-01-00590
                                                                                        APPENDIX F



                             Table 3. Number of CDER Respondents by Level of Reviewer



                                                       No. of CDER           Percent of CDER
                        Level of Reviewer
                                                       Respondents            Respondents


                Blank                                                 13                    3%

                Primary reviewer                                     265                   66%

                Secondary reviewer                                    64                   16%

                Tertiary reviewer                                     23                    6%

                Other                                                 36                    9%

                                            TOTAL                    401                   100%

                Source: OIG Survey of CDER Officials




                        Table 4. Number of CDER Respondents by Length of Service at CDER

                   Length of Service at CDER           No. of CDER           Percent of CDER
                                                       Respondents            Respondents

                Blank                                                 34                    8%

                0-4 years                                            143                   36%

                5-9 years                                            134                   33%

                10 or more years                                      90                   22%

                                            TOTAL                    401                   100%

                Source: OIG Survey of CDER Officials




FDA’s New Drug Application Review Process              39                                         OEI-01-01-00590
                                                                                    APPENDIX F


Internal CDER Survey

        In this report, we also present data from a survey conducted by CDER of its reviewers in
        September 2000. The CDER mailed the survey to a random sample of 188 reviewers (i.e,
        medical, statistical, pharmacology/toxicology, biopharmacology, and chemistry) in numbers
        proportional to those of their scientific disciplines across CDER. It received a 72 percent
        response rate (N=136).

Survey of Sponsors

        We mailed a survey to all sponsors, excluding one federal agency, that had at least one NDA
        approved by CDER in the calendar years 1999, 2000, and 2001. We obtained the list of
        companies and their addresses from FDA and removed any duplicates that we were able to
        identify, for a total of 119 sponsors in our population. We addressed the survey to the chief
        executive officer and/or senior regulatory official within the sponsor’s organization. The survey
        was voluntary and anonymous, unless respondents chose to disclose their name and contact
        information. We sent a reminder to all sponsors midway through the collection period.
        Sponsors returned the survey in the enclosed self-addressed envelope or by fax. We manually
        entered the responses into Raosoft EZSurvey® software for analysis. We received 72
        responses, yielding a response rate of 60 percent. (See Table 5 for more information on the
        sponsor respondents.) We were unable to do a non-respondent analysis since the survey was
        anonymous.


                     Table 5. Number of Sponsor Respondents by the Number of Approved NDAs

              Total No. of NDA’s Approved            No. of Sponsor           Percent of Sponsor
                  Between 2001-1997                   Responses                   Responses


          Blank                                                         2                        3%

          1 NDA                                                       21                       29%

          2-5 NDAs                                                    38                       53%

          More than 5 NDAs                                            11                       15%

                                            TOTAL                     72                      100%

          Source: OIG Survey of Sponsors




FDA’s New Drug Application Review Process            40                                        OEI-01-01-00590
                                                                                   APPENDIX F


        The survey had three main limitations. First, the survey was not addressed to a specific
        individual, so it may not have been delivered to the appropriate official. Second, the list of
        identified sponsors may include a parent company and its subsidiaries that could lead to multiple
        responses by the same company. Lastly, several surveys were undeliverable because of
        inaccurate contact information.

File Review of New Molecular Entities

        We reviewed CDER’s files associated with all 15 new molecular entities approved in FY
        2001. We obtained the paper copies of key documents for each drug’s review process,
        referred to by FDA as the drug’s action package. Each drug’s action package includes the
        reviewer evaluations, correspondences between FDA and the sponsor, and meeting minutes.
        For these new molecular entities, we also reviewed the documents posted on CDER’s website.
        The CDER posts on its website for each approved drug the approval letter, the label, and the
        reviewer evaluations.

        For these same 15 new molecular entities, we also obtained the receipt dates for all amendments
        to the application submitted by the sponsor from CDER’s decision support system. We entered
        these dates into Microsoft ® Excel for analysis. Our analysis included the number and type of
        amendments CDER received, and when in the review process CDER received these
        amendments.

Observations of CDER Meetings

        We observed 17 meetings held by CDER that were associated with NDAs. Nine of these
        meetings were between CDER and sponsors, 7 of which occurred during the investigational new
        drug phase and 2 of which occurred during the NDA review process. Seven of these meetings
        were internal CDER meetings during the NDA review process. And, we observed one advisory
        committee meeting. Many of these meetings occurred during the course of a 2-day observation
        of a division director of a review division within CDER. We developed a structured meeting
        observation guide to focus our observations and notes.

Analysis of CDER’s Data on Advisory Committees

        We obtained data from CDER on advisory committee meetings it held between the calendar
        years 1997 - 2001 related to an NDA. The FDA can hold advisory committees



FDA’s New Drug Application Review Process          41                                         OEI-01-01-00590
                                                                                          APPENDIX F


        to address issues unrelated to a specific NDA. We did not include those meetings in our
        analysis. Based on this data, we calculated the number of advisory committees per year and
        estimated the percentage of approved NDAs that had an advisory committee meeting. We used
        Microsoft® Excel for our analysis.

        We estimated the percentage of approved drugs with an advisory committee using a database of
        all advisory committees associated with an NDA during the calendar years 1997 - 2001. It is
        possible that a drug that was approved between 1998 and 2001 could have had an advisory
        committee prior to 1997; therefore, the advisory committee was not included in our analysis.
        This is most likely to be the case for the year 1998, resulting in the percentage of approved new
        drugs with an advisory committee being an underestimate. If this is the case, this would not
        affect our overall conclusion that the percentage of approved new drugs with an advisory
        committee has declined (see Table 6).


                              Table 6. Estimated Percentage of Approved Drugs By CDER
                                            with an Advisory Committee Meeting

 Calendar            Percent of All               Percent of           Percent of             Percent of
 Year                Approved New                 Approved           Approved New          Approved Priority
                     Drugs with an             Standard Drugs       Molecular Entities      Drugs with an
                       Advisory                with an Advisory     with an Advisory      Advisory Committee
                      Committee                   Committee            Committee               Meeting
                       Meeting                     Meeting              Meeting

 1998                       19% (17/90)                3% (2/65)            40% (12/30)           60% (15/25)

 1999                       24% (20/83)               11% (6/55)            37% (13/25)           50% (14/28)

 2000                       11% (11/98)                6% (5/78)            19% (5/27)            30% (6/20)

 2001                       12% (8/66)                 9% (5/56)            21% (5/24)            30% (3/10)

 Source: OIG Analysis of Data From CDER




FDA’s New Drug Application Review Process                 42                                       OEI-01-01-00590
                                                                                   APPENDIX F


Interviews with CDER Officials

        We conducted 80 interviews with officials from CDER either in person or by telephone. We
        used a structured interview guide for each interview.

        Office Directors. We interviewed 17 office directors and the directors of the sub-offices
        within each of the following offices: the Office of New Drugs, the Office of Clinical
        Pharmacology and Biopharmaceutics, the Office of New Drug Chemistry, the Office of Drug
        Safety, and the Office of Medical Policy.

        Division Directors. We interviewed 27 division directors, including all 15 division directors
        within the Office of New Drugs. The remaining 12 division directors were from the Office of
        Clinical Pharmacology and Biopharmaceutics, the Office of New Drug Chemistry, and the
        Office of Drug Safety.

        Primary and Secondary Reviewers. We interviewed 18 primary and secondary reviewers.
        These primary and secondary reviewers represented a variety of review disciplines: 4 clinicians,
        3 project managers, 7 clinical pharmacologists and biopharmaceutics, 3 statisticians, and one
        postmarketing reviewer. Fourteen of these reviewers came from a random sample of 24
        primary and secondary reviewers who identified themselves on our survey as willing to be
        interviewed. The remaining 10 of the 24 individuals either declined, were unavailable, or could
        not be contacted for an interview. We identified the remaining 4 primary and secondary
        reviewers for interviews through the course of our inquiry.

        Other FDA officials. We conducted 20 interviews with other CDER officials, including the
        director and deputy director of CDER, and individuals from the Review Standards Staff, the
        Office of Management, the Office of Regulatory Policy, and managers of the project managers
        within the Office of New Drugs.

Interviews with Stakeholders

        We conducted several in-person and telephone interviews with pharmaceutical representatives
        and other key stakeholders. We used a structured interview guide for each interview.




FDA’s New Drug Application Review Process          43                                        OEI-01-01-00590
                                                                                    APPENDIX F


        Interviews with pharmaceutical representatives. We interviewed 9 sponsors. Eight were
        selected because they were the first to respond to our survey and identified themselves as willing
        to be interviewed. The remaining sponsor we identified from prior inspection work.

        Interviews with other stakeholders. We conducted 17 interviews with a variety of
        stakeholders. Our stakeholders included clinical investigators, scientific and regulatory experts,
        advisory committee members, representatives from consumer and patient advocacy groups, and
        representatives from industry organizations.




FDA’s New Drug Application Review Process           44                                         OEI-01-01-00590
                                                                                    APPENDIX G



                                              Endnotes

1. More information on PDUFA III can be found on FDA’s website at
http://www.fda.gov/oc/pdufa/PDUFA3.html, accessed June 26, 2002.

2. U.S. Department of Health and Human Services, “PDUFA Reauthorization Good for American
Patients,” Press Release, June 18, 2002.

3. M. Friedman et. al., “The Safety of Newly Approved Medicines,” Journal of the American
Medical Association 281 (May 12, 1999) 18: 1728-1734.

4. “User Fees Credited with 51% Drop in Average Approval Times Since 1993,” Tufts Center for
the Study of Drug Development Impact Reports, October 2001.

5. There is a provision in FDA’s draft guidance on advisory committees to extend the clock for a
priority review for 2 months when the sponsor indicates that some of its material for advisory committee
members cannot be disclosed to the public due to its proprietary nature. But according to FDA, there
has been only one case since the draft guidance was issued where a sponsor indicated that the
information was not to be disclosed to the public. In that case, the drug was not a priority review, and
as such, the extension did not apply. See “Guidance for Industry: Disclosing Information Provided to
Advisory Committees in Connection with Open Advisory Committee Meetings Related to the Testing
or Approval of New Drugs and Convened by the Center for Drug Evaluation and Research, Beginning
on January 1, 2000.” Draft Guidance, December 1999, Food and Drug Administration, U.S.
Department of Health and Human Services.

6. The FDA’s analysis of turnover does not include losses to other Centers within FDA. It only
includes employees that left FDA entirely. The data do not include individuals in the Commission
Corps and administrative support positions. The data include reviewers who are biologists,
microbiologists, pharmacologists, medical officers, consumer safety staff, chemists, statisticians, and
computer specialists.

7. The FDA’s analysis includes losses to CDER and includes all employees within the Center. Leaving
FDA for a position in private industry was the most common reason for leaving the agency. The next
three most common reasons for leaving FDA were retirement, transferring to another agency within the
Department of Health and Human Services, and transferring to another Center within FDA.

8. The FDA’s data are specifically for end-of-phase 2 meetings for a new molecular entity submitted
either as an NDA or a biologic license application. End-of-phase 2 meetings are held prior to the
review of the NDA or biologic license application.



FDA’s New Drug Application Review Process          45                                          OEI-01-01-00590
                                                                                   APPENDIX G


9. In some cases, FDA may also approve a patient package insert or a medication guide at the time of
approval to be distributed to patients. Patient package inserts are voluntary, except for oral
contraceptives, estrogens, and progestational drug products. Medication guides are required by FDA
for drugs with serious adverse effects.

10. See 65 Federal Register, 246, December 22, 2000, “Requirements on Content and Format of
Labeling for Human Prescription Drugs and Biologics; Requirements for Prescription Drug Product
Labels; Proposed Rule.” Food and Drug Administration, U.S. Department of Health and Human
Services.

11. “Draft Guidance for Industry: Clinical Studies Section of Labeling for Prescription Drugs and
Biologics — Content and Format,” July 2001, Food and Drug Administration, U.S. Department of
Health and Human Services; and “Draft Guidance for Industry: Content and Format of the Adverse
Reactions Section of Labeling for Human Prescription Drugs and Biologics,” June 2000, Food and
Drug Administration, U.S. Department of Health and Human Services.

12. The FDA does require a pre-approval safety conference for all new molecular entities. The
purpose of this internal meeting is to inform the postmarketing surveillance team of key safety issues
related to the drug. These meetings can also be helpful in finalizing any postmarketing requirements
FDA may request of the sponsors. “New Drug Applications: Pre-approval Safety Conference,”
6010.1: Manual of Policies and Procedures, Center for Drug Evaluation and Research, Food and Drug
Administration, U.S. Department of Health and Human Services.

13. The FDA is not legally required to provide a summary document explaining the overall basis for
approval. But, for drugs that are of particular interest, either because they are widely used or because
of safety concerns, FDA provides summary information in terms understandable to the general public
on its website. Currently, FDA provides this information for 17 drugs, some of which have been
withdrawn. See “Major Drug Information Pages” on FDA’s website
http://www.fda.gov/cder/drug/default.htm, accessed on April 29, 2002.

14. More information on PDUFA III can be found on FDA’s website at
http://www.fda.gov/oc/pdufa/PDUFAGoals.html, accessed June 26, 2002.

15. U.S. Department of Health and Human Services, “PDUFA Reauthorization Good for American
Patients,” Press Release, June 18, 2002.




FDA’s New Drug Application Review Process          46                                        OEI-01-01-00590
                            ACKNOWLEDGMENTS

This report was prepared under the directionof Mark. R. Yessian, Ph.D., Regional Inspector General for

Evaluation and Inspections in Boston and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector

General. Other principal Office of Evaluation and Inspections staff who contributed include:


Aimee K. Golbitz, Project Leader                       Genevieve Nowolinski, Program Specialist

Steven P. Keenan, Program Analyst

Elizabeth W. Tong, Program Analyst

China D. Eng, Program Analyst





FDA’s New Drug Application Review Process        47                                       OEI-01-01-00590
